XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6073
Facsimile: (916) 731-2122
E-Mail: Scott.Taryle@doj.ca.gov

October 30, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Daniel Flores v. Christian Pfeiffer, Warden
Case No. 20-350
Request for Extension of Time

Dear Mr. Harris:
This office represents respondent Christian Pfeiffer in the above-captioned case. The
petition for a writ of certiorari in this case was filed on September 11, 2020. Respondent initially
waived a response. On October 13, 2020, this Court requested a response to the petition by
November 12, 2020. Pursuant to Rule 30.4, respondent respectfully requests a 32-day extension
of time to Monday, December 14, 2020, to file the response. An extension of time would better
enable respondent to prepare a response that is helpful to the Court. Counsel for the petitioner
has stated that she defers to the Court’s resolution of this extension request.
Sincerely,

For

cc: Orly Ahrony, Esq.
LA2020602999
63690929.docx

/s/ Scott A. Taryle
SCOTT A. TARYLE
Supervising Deputy Attorney General
XAVIER BECERRA
Attorney General

